Jean Coulter, Petitioner
v.
JAMSAN HOTEL MANAGEMENT, INC. et. al.
On Petition for Certiorari
to the Supreme Court of Pennsylvania
WORD COUNT
I hereby certify that the word count provided by the Word Processing
program on my computer, is 8556 words for the pertinent sections of the Petition
for Certiorari in this matter.
Jean Coulter, Petitioner
CERTIFICATE OF SERVICE (corrected)
I hereby certify that on January 4. 2021.1 served Defendants Counsel by
email only (by agreement of Counsel), one true and correct of the Petition for
Certiorari in Jean Coulter v. JAMSAN Hotel Management, Inc., et. al. address for
Counsel shown below :
j donovan@sloanewalsh.com
ekaminska@sloanewalsh.com
emccarthy@sloanewalsh.com
(Representing all of the Respondents who took part in the state courts)

Jeam Coulter, Petitioner
62© Butler Crossing #3
PMB 172
Butler, Pennsylvania 16001
412-616-9505
jeanecoulter@yahoo.com

